May 31, 2002

DONNA M. PEAK
VICE PRESIDENT, FINANCE, CONTROLLER

SUBJECT:     Audit Report - Relocation Compilation Report
             (Report Number FT-AR-02-012)

This report presents the results of our audit of the Postal Service’s relocation program
(Project Number 00PA019FR006). The Board of Governors requested the overall audit
on relocation work, and this report is the sixth in a series of reports examining relocation
benefits for Postal Service executives. This is the capping report to summarize all
relocation audit work performed.

We examined all aspects of the Postal Service’s executive relocation program. The
audit disclosed that amounts paid by the Postal Service for temporary quarters, house-
hunting trips, and moving and storage of household goods were generally comparable
with the relocation benefits offered by the private sector and other government agencies
with which we benchmarked. However, our benchmarking also disclosed three areas
where the Postal Service executive relocation program was excessive. These areas
include miscellaneous relocation expense benefits, the Shared Real Estate Appreciation
Loan Program, and equity loss payments. While Postal Service management maintains
they need an adequate management tool to attract and retain talented employees, it is
necessary for them to ensure that the relocation program is reasonable when compared
with the private sector and government entities.

We offered four recommendations to strengthen controls over the program as well as
improve the Postal Service’s cash flow. Management agreed with recommendation 3,
but disagreed with recommendations 1, 2, and 4. We consider management’s
disagreement with recommendations 1, 2, and 4 unresolved, and plan to pursue these
recommendations through the formal audit resolution process. Management’s
comments are included in the report.

The Office of Inspector General (OIG) considers recommendations 1 through 4
significant and, therefore, requires OIG concurrence before closure. Consequently, the
OIG requests written confirmation when corrective actions are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation that the recommendations can be closed.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have questions or need additional information, please contact Bennie M. Cruz,
director, Financial Statements, at (214) 775-9116, or me at (703) 248-2300.



John M. Seeba
Assistant Inspector General
 for Financial Management

Attachment

cc: Richard J. Strasser, Jr.
    John M. Nolan
    Suzanne F. Medvidovich
    Mary Anne Gibbons
    Susan M. Duchek
                             INTRODUCTION
Background          This is a capping report that summarizes relocation audit
                    work performed by the Office of Inspector General (OIG).
                    The Board of Governors requested the overall audit on
                    relocation benefits, and this report is the sixth in a series of
                    reports examining such benefits for Postal Service
                    executives. This review initially started with the audit of the
                    relocation benefits paid to, two Postal Service officers, and
                    then expanded to cover various components of the
                    relocation program.

                    The Postal Service provides relocation benefits that include:

                    •   Advance house-hunting trips to the new location.
                    •   Temporary quarters at the new location.
                    •   Return trips to the employee’s residence.
                    •   En route travel expenses to the new location.
                    •   Home purchase and sale expenses.
                    •   Equity loss payments on the sale of the prior residence.
                    •   Shared Real Estate Appreciation Loan Program.

Objective, Scope,   The objective of this audit was to provide an overall
and Methodology     assessment of the reasonableness and comparability of the
                    executive relocation benefits.

                    We accomplished our audit objective by:

                    •   Reviewing Postal Service relocation policies and
                        procedures.

                    •   Interviewing appropriate Postal Service officials.

                    •   Analyzing supporting relocation documents and
                        computer generated relocation payment information
                        maintained by the Postal Service.

                    •   Reviewing Internal Revenue Service, Office of Personnel
                        Management relocation guidelines.

                    We analyzed the cost effectiveness of the Shared Real
                    Estate Appreciation Loan Program, at the request of the
                    deputy postmaster general. We performed a cash-flow




                                         1
                              Restricted Information
                       analysis of properties sold from 1997 through 2000 under
                       this program.

                       We performed benchmarking in response to Postal Service
                       officials’ assertion that programs such as the Shared Real
                       Estate Appreciation Loan Program were an accepted
                       practice at major universities to both attract and retain talent.
                       We contacted 11 major universities.

                       We conducted the audits from January 2000 through
                       May 2002 in accordance with generally accepted
                       government auditing standards and included such tests of
                       internal controls as were considered necessary under the
                       circumstances. We discussed our findings and conclusions
                       with appropriate management officials and included their
                       comments, where appropriate.

Prior Audit Coverage   This is the sixth in a series of reports examining executive
                       relocation benefits. The five prior reports are summarized
                       below.

Report Number          In our May 2000 report, Relocation Benefits for Postal
FR-RA-00-010(R)        Service Officers (Report Number FR-RA-00-010(R)), we
                       concluded that two officers, who were promoted but did not
                       change duty stations, received relocation benefits of about
                       $248,000 for moves within the local commuting area. In
                       addition, we found that controls were not in place to ensure
                       that the Board of Governors approved relocation benefits.
                       Management concurred with our recommendation to require
                       written justification documenting the reasons for relocations
                       within the local commuting area. Also, the Board of
                       Governors agreed with our recommendation to review and
                       approve deviations from officer relocation policy and
                       components of officer incentive plans.

Report Number          Our September 2000 report, Miscellaneous Relocation
FT-AR-00-001           Expense Payments (Report Number FT-AR-00-001),
                       concluded that executives received miscellaneous relocation
                       expense payments of $10,000 or $25,000 without having to
                       document expenses incurred. Consequently, payments
                       could be perceived as a way to exceed the statutory limits
                       on compensation. In response, Postal Service management
                       stated that, policy/guidelines do not include relocation
                       benefits as part of compensation. Management agreed with



                                            2
                                 Restricted Information
                our recommendations to use benchmarking information for
                determining the appropriate payments and to update and
                publish criteria used for requesting payments. However,
                management disagreed with our recommendations to
                implement controls to ensure payments are not received
                until relocation has commenced and to classify payments
                exceeding the miscellaneous expense amount as relocation
                bonuses. We continue to believe that payments should only
                be made when the employee has actually begun the
                relocation process.

Report Number   In September 2000, we issued a report, Equity Loss
FT-AR-00-004    Payments (Report Number FT-AR-00-004) that examined
                payments for losses on real estate transactions incurred as
                part of the relocation benefits for Postal Service executives.
                We confirmed that the Postal Service policy of reimbursing
                employees for losses incurred on real estate transactions
                were similar to policies of private and public sector agencies.
                In addition, payments were calculated properly based on
                verbal formulas provided by Postal Service officials.
                However, controls over equity loss payments needed
                improvement. Management agreed with our
                recommendation to fully document policies and procedures
                for equity loss calculations and reimbursements; and to
                develop and publish a list of approved capital improvements
                used in determining loss on the sale of an employee’s home.

Report Number   In September 2000, we issued a report, Deviations from
FT-AR-00-005    Postal Relocation Policy (Report Number FT-AR-00-005), on
                deviations from the Postal Service’s Relocation Policy that
                were granted to Postal Service executives. We concluded
                the deviations reviewed appeared to be in accordance with
                the Postal Service’s relocation policy and in the best interest
                of the Postal Service. No recommendations were offered
                with this report, and management did not provide comments.

Report Number   In October 2001, we issued a report, Shared Real Estate
FT-AR-02-001    Appreciation Loan Program (Report Number FT-AR-02-
                001). Through benchmarking, we determined that the
                Shared Real Estate Appreciation Loan Program was not
                comparable to programs offered by private companies or
                public sector agencies. In addition, the Shared Real Estate
                Appreciation Loan Program was only offered to a limited
                number of executives. Also, controls over the Shared Real
                Estate Appreciation Loan Program needed strengthening.



                                    3
                         Restricted Information
Specifically, we noted that the Postal Service lacked formal
written policies and procedures for the program; waived
program requirements in one-third of the files we reviewed;
allowed participation by employees who were not officers or
did not report directly to officers; lacked adequate
documentation of loan information; and extended the offer to
cities not included in the program.

We recommended, and Postal Service management agreed,
to make the Shared Real Estate Appreciation Loan Program
available to all executives, improve documentation, restrict
participation to defined high-cost areas, and ensure that
exceptions are in the best interest of the Postal Service. We
also recommended that management update approved
high-cost areas annually. Although management agreed
with the need to accurately measure the differences in the
urban cost of living index, they noted that an annual review,
as recommended, was too frequent. Management proposed
conducting a biennial review and searching for a source
other than the American Chamber of Commerce
Researchers Association’s index. Management’s actions,
taken or planned, were responsive to our recommendations.




                    4
         Restricted Information
                                          AUDIT RESULTS
Reasonableness and               We found that amounts paid by the Postal Service for
Comparability of                 temporary quarters, house-hunting trips, moving, and
Relocation Program               storage of household goods were generally comparable with
                                 the relocation benefits offered by the private sector and
                                 other government agencies with which we benchmarked.
                                 However, our benchmarking disclosed several areas where
                                 the Postal Service executive relocation program was
                                 excessive when compared with companies in the private
                                 sector and other government agencies. These areas
                                 include miscellaneous relocation expense benefits and
                                 certain aspects of the Shared Real Estate Appreciation
                                 Loan Program. In addition, we found that controls over
                                 equity loss payments still need improvement.

Miscellaneous                    We determined that miscellaneous relocation expense
Relocation Expense               payments made to Postal Service executives significantly
Allowances Were                  exceeded the amounts paid by private industry and other
Excessive                        government agencies. The Postal Service’s miscellaneous
                                 relocation expense payments are excessive when
                                 compared to other governmental and private sector
                                 organizations.

                                 In response to our report,1 Postal Service management
                                 presented benchmarking information to the Compensation
                                 Committee of the Board of Governors. We analyzed their
                                 results and found that the information was misleading. The
                                 major difference was that the private sector salary
                                 information that was used was not comparable to the
                                 salaries paid to Postal Service executives. The salaries
                                 used were $579,000 and $1,600,000 for two private sector
                                 companies, which were 3.5 to 10 times higher than the
                                 $166,700 maximum salary that a Postal Service executive
                                 can earn. If these salaries were limited to the current Postal
                                 Service maximum salary, the miscellaneous relocation
                                 expense allowance would be reduced to $11,669 and
                                 $13,891 respectively.

                                 We believe that this benchmarking information, when placed
                                 in the correct context, confirms our conclusion that
                                 miscellaneous relocation expense payments made to Postal


1
    Miscellaneous Relocation Expense Payments (Report Number FT-AR-00-001) dated September 2000.



                                                       5
                                            Restricted Information
                        Service executives significantly exceeded the amounts paid
                        by private industry and other government agencies.

                        In addition, we believe that the amount provided clearly
                        exceeds any reasonable expense any relocating official is
                        expected to incur. Postal Service management believes
                        that the miscellaneous benefit should be provided for major
                        repairs, replacements, or improvements to their property
                        prior to selling their old residence or purchasing a new
                        residence.

Impact of Multiple      The way the existing program is currently set up allows
Miscellaneous           officers to receive multiple miscellaneous reimbursements
Payments                when relocating several times in a short period. For
                        example, we found one Postal Service officer relocated
                        three times in less than 3 years. This officer received a
                        $25,000 miscellaneous relocation expense payment with
                        each move. For this officer, miscellaneous benefits
                        represented more than half of the total reimbursement paid
                        to relocate this individual for all three moves.

                        Providing large dollar value payments without the employee
                        supplying documentation to support their actual expenses
                        can create a negative public perception of the Postal
                        Service and appear excessive. We believe this further
                        reinforces the need to reduce the amount for miscellaneous
                        relocation expense payments to prevent this benefit from
                        being used as a compensation tool versus a relocation tool
                        for which it was originally designed.

Shared Real Estate      Postal Service officials stated that universities had
Appreciation Loan       relocation programs. However, through our benchmarking,
Program is Unique and   we found that only one of the nine major universities
Not Cost Effective      responding to our contact offered a program similar to the
                        Postal Service’s Shared Real Estate Appreciation Loan
                        Program. Additionally, two universities offered various
                        forms of housing assistance to attract and retain qualified
                        staff. These two universities offered programs that included
                        reduced rate second mortgages and down payment
                        assistance. Six universities stated they did not offer any
                        housing assistance at all, an additional two universities did
                        not respond to our contact.




                                            6
                                 Restricted Information
                       Also, in response to a question about the cost effectiveness
                       of this program, we performed a cash-flow analysis of the
                       Shared Real Estate Appreciation Loan Program. We
                       analyzed 13 program properties that were sold between
                       1997 and 2000.

                       The Postal Service invested approximately $4,337,700 in
                       these properties. Interest income earned on these
                       properties was about $916,000. The Postal Service’s
                       portion of the capital gain was approximately $101,600.
                       This investment resulted in a net positive cash flow of nearly
                       $1,017,600. This makes the program appear to be a sound
                       investment. However, we found that, in spite of positive
                       cash flow, this investment resulted in an extra cost of about
                       $544,600 by way of negative net present value. The costs
                       of borrowing for ten of the mortgages were higher than their
                       internal rate of return. We did not analyze the impact of
                       other possible costs to the Postal Service, such as loan
                       servicing fees, real estate property taxes, and insurance
                       charges. The Postal Service's share of the mortgages in
                       the amount of over $1,897,900 did not earn any interest.
                       Based on this analysis we concluded that the program is not
                       economically justifiable.

Controls Over Equity   Controls over equity loss payments still need improvement.
Loss Payments Need     Areas that need to be addressed include, documenting all
Improvement            formulas used, as well as creating a list detailing what is
                       considered a capital improvement. While the Postal Service
                       insists that every effort has been made to ensure that the
                       equity loss program has been administered on a consistent
                       basis, without documented policies and procedures, the
                       potential for inconsistent determinations is increased.

                       We acknowledge the limited information provided on this
                       program by the recent update of Handbook F-15, Travel and
                       Relocation, Part 3 Relocation (Non-bargaining Only).
                       However, the information presented is not sufficient to
                       ensure adequate understanding and administration of this
                       program. Appendix A includes a summary of Postal Service
                       relocation benefits.

                       Further, Postal Service officials informed us that a list of
                       capital improvements considered to be appropriate for
                       reimbursement under this program was not developed



                                           7
                                Restricted Information
                 because such a list would be too long. We disagree with
                 this assertion. The Internal Revenue Service Publication
                 523, “Selling Your Home,” contains a list of capital
                 improvements, which could be used as guidance. We
                 believe the Postal Service should either use the Internal
                 Revenue Service definition, or develop and publish its own
                 list.

Recommendation   We recommend the vice president, Finance, controller:

                 1. Adjust officer miscellaneous relocation expense benefits
                    to between $11,000 and $13,000, as determined by our
                    benchmarking. In addition, adjust other executives’
                    miscellaneous relocation expense accordingly.

Management’s     Management disagreed with our recommendation to adjust
Comments         the amount of the miscellaneous relocation expense
                 payment. They stated that this payment is provided to ease
                 the burden of the frequent moves required by Postal Service
                 executives facing a myriad of moving expenses.
                 Management also stated that this program has been
                 reviewed and approved by the Board of Governors.
                 Management’s comments, in their entirety, are included in
                 Appendix B of this report.

Evaluation of    We found the $25,000 miscellaneous relocation expense
Management’s     benefits paid to Postal Service executives excessive when
Comments         compared to the $500 to $1,000 offered by most federal
                 agencies and the $11,000 to $13,000 range determined
                 through our benchmarking. These organizations also
                 require employees to move frequently.

                 We view the disagreement on this recommendation as
                 unresolved and plan to pursue it through the formal audit
                 resolution process.

Recommendation   2. Eliminate the existing Shared Real Estate Appreciation
                    Loan Program and develop an alternative program that
                    would be more cost effective and still provide a
                    mechanism to recruit and retain executives.

Management’s     Postal Service management disagreed with our
Comments         recommendation that the Shared Real Estate Appreciation
                 Loan Program be modified. Management indicated that with
                 an organization as large and diverse as the Postal Service,


                                     8
                          Restricted Information
                 they need varied staff experience in varied places
                 throughout the country. They maintained that the program
                 allows executives to accept the challenges in selected key
                 cities with high-cost housing, without those executives losing
                 their current standard of living. Finally, management
                 considered the program to be cost effective. They stated
                 that the ongoing cost to the Postal Service is related to the
                 money tied up in assets not earning interest. Based on the
                 Postal Service’s share of the portfolio, interest is
                 approximately $300,000 per year for all Shared Real Estate
                 Appreciation Loans.

Evaluation of    We agree that the Postal Service needs a relocation
Management’s     program, which attracts and retains employees. We
Comments         maintain that the Shared Real Estate Appreciation Loan
                 Program is not economical. The cost of the program, as
                 currently configured, is greater than the $300,000 indicated
                 by management. In its calculations, the Postal Service did
                 not consider the cost of borrowing money needed to make
                 loans to individuals. In this case, the cost of borrowing
                 money exceeded the internal rate of return for the loans.
                 We calculated a negative net present value of $544,600 for
                 the 13 loans sold between 1997 and 2000.

                 Further, our benchmarking disclosed that other
                 organizations offer services that would be more cost
                 effective to the Postal Service, such as lower rate second
                 mortgages and down-payment assistance.

                 We view the disagreement on this recommendation as
                 unresolved and plan to pursue it through the formal audit
                 resolution process.

Recommendation   3. Fully document policies and procedures for equity loss
                    calculation and reimbursement in Handbook F-15, Travel
                    and Relocation, Part 3 Relocation (Non-bargaining Only)
                    and publish a list of appropriate capital improvements.

Management’s     Management agreed with our recommendation and will
Comments         document policies and procedures for the equity loss
                 calculation and reimbursement in Handbook F-15, Travel
                 and Relocation. In addition, they will update the handbook
                 to include the formulas used, and publish a list of capital
                 improvements. All updates will be completed and published
                 on the web by the end of the fiscal year, September 6, 2002.



                                     9
                          Restricted Information
Evaluation of    Management’s comments were responsive to our
Management’s     recommendation.
Comments

Recommendation   4. Require officers to document costs before the
                    miscellaneous relocation expense is paid out if they
                    relocate more than once during a 3-year period.

Management’s     Management disagreed with our recommendation that
Comments         officers be required to document costs before the
                 miscellaneous relocation expense is paid, if they relocate
                 more than once during a 3-year period. Management
                 disagreed with this recommendation for the same reasons
                 they mentioned in recommendation 1. Management also
                 felt that the example we cited in the report was a unique and
                 unusual occurrence.

Evaluation of    We maintain that officers need to document the actual
Management’s     amount of their miscellaneous expenses when they relocate
Comments         multiple times. Although the example cited in our report was
                 the only case where an employee received multiple
                 miscellaneous relocation payments within a 3-year period,
                 there is nothing in place to prevent this condition from
                 recurring. This practice could create a negative public
                 perception, especially as the Postal Service continues to
                 raise rates and experience revenue shortfalls.

                 We view the disagreement on this recommendation as
                 unresolved and plan to pursue it through the formal audit
                 resolution process.




                                    10
                          Restricted Information
                 APPENDIX A
SUMMARY OF POSTAL SERVICE RELOCATION BENEFITS




                          11
                Restricted Information
          12
Restricted Information
APPENDIX B. MANAGEMENT’S COMMENTS




                     13
           Restricted Information
          14
Restricted Information
